<html>
<title> - NATIONAL SCIENCE FOUNDATION PART II: FUTURE OPPORTUNITIES AND CHALLENGES FOR SCIENCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 NATIONAL SCIENCE FOUNDATION PART II: 
                        FUTURE OPPORTUNITIES AND
                         CHALLENGES FOR SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2017

                               __________

                           Serial No. 115-08

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-672 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f081f002f0c1a1c1b070a031f410c000241">[email&#160;protected]</a> 
                 
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas
                            C O N T E N T S

                             March 21, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     4
    Written Statement............................................     6

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    15
    Written Statement............................................    17

                               Witnesses

Dr. Joan Ferrini-Mundy, Acting Chief Operating Officer, National 
  Science Foundation (NSF)
    Oral Statement...............................................    19
    Written Statement............................................    22

Dr. Maria Zuber, Chair, National Science Board
    Oral Statement...............................................    32
    Written Statement............................................    34

Dr. Jeffrey Spies, Co-Founder and Chief Technology Officer, 
  Center for Open Science and Assistant Professor, University of 
  Virginia
    Oral Statement...............................................    42
    Written Statement............................................    44

Dr. Keith Yamamoto, Vice Chancellor for Science Policy and 
  Strategy, University of California, San Francisco
    Oral Statement...............................................    52
    Written Statement............................................    54

Discussion.......................................................    63


             Appendix I: Additional Material for the Record

Statement submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    82

Document submitted by Representative Daniel Lipinski, Ranking 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    85

 
                  NATIONAL SCIENCE FOUNDATION PART II:
            FUTURE OPPORTUNITIES AND CHALLENGES FOR SCIENCE

                              ----------                              


                        TUESDAY, MARCH 21, 2017

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time. 
Good morning and welcome to today's hearing entitled National 
Science Foundation Part II: Future Opportunities and Challenges 
for Science. I now recognize myself for five minutes for an 
opening statement.
    For nearly 70 years, the National Science Foundation has 
served a mission that made the United States a world leader in 
science and innovation. The key question before us today: How 
can NSF keep us and continue to keep us at the forefront of 
science and innovation for the next 70 Years?
    Today we will hear perspectives on how NSF can meet the 
challenges and opportunities of the future and ideas for ways 
that NSF can improve.
    We will examine particular challenges such as setting 
priorities during a time of budgetary constraints, and ensuring 
that all taxpayer-funded research is high quality, 
reproducible, and conducted with integrity.
    We will also look at the vast opportunities created by 
technology, which allows science to be more accessible and has 
created more data than ever before. I look forward to hearing 
how we can make science more open and harness that data to 
solve real-world problems.
    There are also great opportunities for innovation where 
science disciplines intersect. How can we encourage more 
transdisciplinary approaches to solving some of our toughest 
challenges, from cybersecurity to traumatic brain injuries or 
Alzheimer's, diabetes, and so many more issues that we know 
you're addressing and that we've addressed here in the 
Committee and elsewhere throughout Congress. But the best 
breakthroughs come when we break down those silos.
    Finally, we have a great opportunity and challenge to 
develop a new generation of STEM workers. A study by Georgetown 
projects 2.4 million job openings in STEM through 2018, where 
Virginia will lead the nation with 8.2 percent of its jobs 
being STEM related.
    By 2018, there are projections that Virginia will need to 
fill 404,000 STEM jobs. These are good paying jobs, and we need 
to prepare students to fill them. And I'm happy to say that we 
have a Dominion student here from Virginia today at our hearing 
who is shadowing us here today to hear from our great 
witnesses.
    So this is the second of two hearings the Research and 
Technology Subcommittee is holding on the National Science 
Foundation, NSF, this month, to provide input into a 
reauthorization of NSF later this year. The first hearing held 
on March 9 with Director France Cordova covered issues 
addressed in the American Innovation and Competitiveness Act, 
including accountability and transparency, large facility 
construction management reform, research misconduct, and STEM 
education coordination. I should actually emphasize it with 
preventing the research misconduct there where we're addressing 
that.
    The AICA, signed into law in January, demonstrates that 
there is a strong bipartisan commitment on both sides of the 
aisle to the mission of NSF and to supporting basic and 
fundamental research.
    I hope this Committee can continue to work together on 
making sure we maintain our nation's leadership in science. 
Innovation is about seeking new methods, new ideas, and new 
breakthroughs. We want to make sure that the way we fund, 
support, and conduct science is as innovative as the research 
it produces.
    And with that, I look forward to hearing the testimony of 
our guests.
    [The prepared statement of Chairwoman Comstock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. And I now recognize the Ranking 
Member, the gentleman from Illinois, Mr. Lipinski, for his 
opening statement.
    Mr. Lipinski. Good morning. Thank you, Chairwoman Comstock, 
for holding this hearing on the future opportunities and 
challenges for science. I also want to thank our panel for 
being here this morning to inform our discussion on the 
important issues facing the U.S. scientific community.
    As a scientist, I chose to be on the Science Committee, and 
this Subcommittee in particular, because of the key role I 
would be able to play with my colleagues in promoting and 
overseeing the National Science Foundation, the world's 
foremost facilitator of top-quality scientific research. As 
Chair and now Ranking Member of this Subcommittee for more than 
eight years, I am proud to--proud of what I have been able to 
help the Foundation--how I've been able to help the Foundation 
fulfill its critical mission.
    All of us in this room want to maximize the benefits that 
we can reap from federal investments in science, but we 
sometimes differ on the best way to do this. Some believe that 
federal investments in particular fields of research are a 
frivolous use of taxpayer dollars and that funding for these 
projects would be better utilized in other areas of research. I 
believe that there is unambiguous evidence to the contrary and 
that NSF investments across all fields of science and 
engineering have yielded tremendous societal benefits over the 
past 70 years.
    I want to say a few words about a primary target for some 
criticism: research funded through the NSF's Social, 
Behavioral, and Economic Sciences, or SBE Directorate. I have 
heard the argument that, in the wake of proposed cuts to the 
SBE directorate, if social and behavioral science research adds 
value to an interdisciplinary initiative--cybersecurity, for 
example--the other NSF directorates participating in the 
initiative could fund the SBE element of the project. There are 
a number of problems with this approach.
    First, program officers face strong competition for 
research funding within their own directorates and are thus 
very reluctant to divert funding from their own field to 
researchers in another field.
    Second, NSF currently only supports the highest quality SBE 
research, guided by the expertise of the scientists in the SBE 
directorate, many of them supported directly by the SBE budget. 
If SBE research were to be supported only as an add-on to other 
projects, the quality of the research would inevitably suffer. 
And an engineering program officer, no matter how good they are 
in their field, cannot be expected to have the expertise to 
assess the social science component of a proposal.
    I also want to point out that SBE funding accounts for only 
4.5 percent of the total NSF research budget, or $272 million 
out of over $6 billion.
    When I was a political scientist, I was one of the 
strongest proponents of interdisciplinary research. I believed 
that fields of study were oftentimes too siloed. But I also 
understood that groundbreaking interdisciplinary research 
required that those involved in that research needed to bring 
the best expertise in their own fields to the table. If SBE 
funding is gutted, progress in the social sciences will slow 
and its community of experts will shrink along with its 
capacity to add value to other research initiatives. As a 
result, in the long term, America's capabilities in 
cybersecurity, medicine, military planning, disaster 
preparedness and aid, and countless other fields will suffer. 
For interdisciplinary research to be transformative, the core 
research it draws from must be strong.
    The evidence bears out that unfettered research driven by 
key questions and approaches within a discipline that is 
carried out across all fields of science and engineering serves 
as the best foundation for discoveries and technological 
innovations. This is the philosophy the NSF has followed, and 
it has produced outstanding benefits for our economic and 
national security.
    Perhaps more important, it is that unfettered ability to 
pursue the best and most compelling ideas that attracts and 
nurtures our nation's and the world's greatest scientific 
talent and keeps them here on our own shores, contributing to 
our nation and developing the next generation of American STEM 
talent. If we start to suffer the brain drain that other 
countries such as the UK and Germany suffered in decades past, 
we may never fully recover.
    We can all agree that we want to maximize the return on 
federal investment in science, and there are ways of doing this 
that we can agree on. It is important to ensure that research 
is reproducible and conducted with integrity. We can make 
certain that data obtained from federally funded research is 
made available to other scientists and to the public. And we 
can encourage interdisciplinary collaboration while maintaining 
support for core research. WhileCongress should set priorities 
for our investments in science, it does not have to be at the 
expense of scientific inquiry or the viability of entire 
research disciplines.
    Madam Chairwoman, before I yield back, I want to ask 
unanimous consent to put in the record a document that majority 
and minority staff received yesterday from the NSF Inspector 
General, Allison Lerner, in regard to the number of incidents 
of research misconduct over the past 12 years.
    Chairwoman Comstock. So directed.
    Mr. Lipinski. And if the Chairwoman----
    Chairwoman Comstock. Without objection.
    [The information appears in Appendix II]
    Mr. Lipinski. Thank you. And if--allow me to go on another 
minute?
    Chairwoman Comstock. Sure.
    Mr. Lipinski. I just want to talk a little bit about this, 
what I just inserted for the record. In her testimony before 
the Committee two weeks ago, Ms. Lerner stated that there were 
175 cases of research misconduct reported in the OIG semi-
annual reports over the last four years. Immediately after the 
hearing, she notified the staff that she had erred in her 
testimony and there were only 75. At the same hearing, she 
testified that there had been a significant increase in the 
number of substantial allegations of research misconduct in 
recent years. Committee staff followed up the same day by 
asking her for the data, and yesterday she shared a 12-year 
history of allegations, investigations, and findings of 
research misconduct at NSF.
    When you look at the data, you will notice two striking 
things. First, it would be very hard to discern any clear trend 
over the last decade, let alone a significant increase. Second, 
looking just at fabrication and falsification, which are 
arguably much worse than plagiarism, and what the IG claims to 
have been referring to her in testimony, you will see an 
average of 12 OIG investigations per year for the past 12 
years, 15 cases per year if you look just in the last five 
years. When it comes to actual agency findings of misconduct, 
the average is 2.6 per year over 12 years and 3.2 over the last 
five years. It is important to point out that these numbers 
apply to all NSF proposals, not just funded grants. NSF 
receives 50,000 grant proposals per year. Fifteen cases of 
substantive allegations of research misconduct represents 0.03 
percent of all of those proposals; 3.2 findings of research 
misconduct per year represents .0064 percent of all proposals. 
Research misconduct is a very serious issue, but I think it is 
important to keep these numbers in mind.
    I look forward to discussing all of these issues. I thank 
all of the witnesses for being here today, and I yield back. 
Thank you.
    [The prepared statement of Mr. Lipinski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you. And Chairman Smith has a 
schedule conflict this morning, so we have a statement for the 
record to submit on his behalf.
    [The prepared statement of Chairman Smith appears in 
Appendix II]
    Chairwoman Comstock. And I now recognize the Ranking Member 
of the Full Committee for a statement. Ms. Johnson?
    Ms. Johnson. Thank you very much, and good morning. I want 
to thank the Chairwoman and Ranking Member Lipinski for holding 
this hearing, and welcome to our very distinguished panel of 
witnesses.
    I believe that the stated purpose of this hearing is 
something we can all support. The process for setting research 
priorities at the National Science Foundation has always been a 
combination of science-driven and policy-driven, or bottom-up 
and top-down. The Congress does have a role to play.
    Reproducibility is a well-documented challenge across all 
STEM fields and one for which this Committee can help promote 
progress. Research misconduct is the rare exception. 
Nevertheless, we should remain vigilant and promote good 
policies, including education and training, to minimize 
misconduct everywhere.
    I strongly support open science and data sharing. For the 
last two Congresses I cosponsored the Public Access to Public 
Science Act with Representative Sensenbrenner. To this date we 
have been unable to convince the Chairman to take it up in a 
Committee. I hope that we will continue to look forward to 
considering it. Along with every other Science Committee 
Democrat, I also cosponsored with Representative Tonko's 
Scientific Integrity Act that promotes open science and data 
sharing while protecting privacy and confidentiality. I 
encourage the Chairman to take that bill up as well.
    However, data sharing is never as simple as it sounds, and 
our witnesses will help shed some light on the complexity.
    While the core STEM disciplines remain essential, many 
scientific frontiers are at the boundaries between disciplines. 
We must continue to look for policies and funding incentives to 
promote transdisciplinary research. National Science Foundation 
has come a long way just in the last decade. However, unhelpful 
stovepipes between disciplines remain, especially at our 
research institutions. Finally, there are few topics that I am 
more passionate about than developing a new generation of STEM 
workers. On all of these topics, I have no doubt that the 
experts sitting before us today have many wise recommendations 
based on many decades of collective experience. Those of us 
sitting on this side of the dais would be most wise to heed 
their recommendations.
    For example, I am quite confident that none of these 
witnesses will endorse slashing funding for the geosciences or 
social and behavioral sciences in order to increase funding for 
other fields. I also doubt that any of these witnesses confuse 
research reproducibility with research misconduct, yet I often 
hear the rare cases of misconduct being used as a sledgehammer 
to impugn scientists broadly.
    We can set priorities and develop good science policies 
without stifling scientific inquiry or shutting down entire 
fields of research. If we truly care about developing a new 
generation of STEM workers, if we truly care about our nation's 
economic and national security, and if we truly care about the 
well-being of our children and grandchildren, we will listen to 
the experts before us today and the many other scientific 
leaders who have so thoughtfully developed recommendations for 
the future of the National Science Foundation and U.S. 
leadership in science and technology.
    I so look forward to the testimony from our panelists 
today, and I thank you, Madam Chair, and yield back.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you. I'll now introduce our 
witnesses. Our first witness today is Dr. Joan Ferrini-Mundy, 
Acting Chief Operating Officer of the National Science 
Foundation.
    Prior to this role she served as Assistant Director of the 
NSF for Education and Human Resources since February 2011 and 
has been at NSF in various capacities since 2007. From 1999 to 
2011 she held an appointment at Michigan State University where 
she was a University Distinguished Professor of Mathematics 
Education. She was elected a fellow of the American Association 
for the Advancement of Science in 2011. Dr. Ferrini-Mundy holds 
a Ph.D. in Mathematics Education from the University of New 
Hampshire, and she is a resident of the 10th District in 
Chantilly. We welcome you here today.
    Dr. Maria Zuber, our second witness, is Chair of the 
National Science Board. In 2013, Dr. Zuber was appointed Vice 
President for Research at the Massachusetts Institute of 
Technology where she oversees more than a dozen 
interdisciplinary research laboratories and centers. Dr. Zuber 
was awarded the NASA Distinguished Public Service Medal in 
2004, and in 2008 she was named to the U.S. News list of 
America's Best Leaders. She received a Bachelor of Arts in 
Astronomy from the University of Pennsylvania as well as a 
Master of Science and Ph.D., both in Geophysics from Brown 
University.
    Dr. Jeffrey Spies is our third witness, and he is the Co-
Founder and Chief Technology Officer for the Center for Open 
Science and Assistant Professor at the University of Virginia. 
Dr. Spies was recently named the Association for Psychological 
Science Rising Star for early career scientists whose work has 
already advanced the field and signals great potential for 
continued contributions. He completed his undergraduate work at 
the University of Notre Dame where he also earned his Master's 
Degree in Psychology and Computer Science. He also holds a 
Ph.D. in Quantitative Psychology from the University of 
Virginia.
    Dr. Keith Yamamoto is our fourth witness, and he is the 
Vice Chancellor for Science Policy and Strategy at the 
University of California, San Francisco, where he joined the 
faculty in 1976. He chairs the Coalition for the Life Sciences 
and sits on the National Academy of Medicine's Executive 
Committee, the National Academy of Sciences, Division of Earth 
and Life Studies' Advisory Committee, and the Executive 
Committee of Research America. He is also an elected member of 
the American Academy of Arts and Sciences and a Fellow of the 
American Association for the Advancement of Science. He 
received a Bachelor of Science from Iowa State University and a 
Ph.D. from Princeton University.
    I now recognize Dr. Ferrini-Mundy for five minutes to 
present her testimony.

              TESTIMONY OF DR. JOAN FERRINI-MUNDY,

                ACTING CHIEF OPERATING OFFICER,

               NATIONAL SCIENCE FOUNDATION (NSF)

    Dr. Ferrini-Mundy. Thank you. Good morning Ranking Member 
Johnson, Chairwoman Comstock, Ranking Member Lipinski, and 
distinguished Members of the Subcommittee. My name is Joan 
Ferrini-Mundy, and I am the National Science Foundation's 
Acting Chief Operating Officer. Previously I served as the NSF 
Assistant Director for Education and Human Resources. Before 
coming to the National Science Foundation, I was a Professor of 
Mathematics and Education and an Administrator at Michigan 
State University.
    I appreciate the opportunity to testify as the Foundation 
celebrates nearly seven decades of funding scientific 
discoveries. The mission of NSF is to promote the progress of 
science; to advance the national health, prosperity and 
welfare; and to secure the national defense. I will highlight 
four features of NSF's approach to enacting the mission that 
have served science and the nation well since our beginnings: 
fundamental research, flexibility, partnerships, and people.
    For nearly 70 years, NSF has focused on investing in 
fundamental research across all fields of science and 
engineering. When grants for fundamental research are made, it 
is often impossible to immediately see what the direct impact 
on society will be. Yet, NSF investments have benefitted the 
lives and livelihoods of generations of Americans. NSF 
investments drive U.S. economic growth, strengthen our nation's 
security, and give the country the competitive edge we need to 
exert our global leadership.
    A second hallmark of NSF's approach is maintaining the 
flexibility to fund the very best scientific ideas from 
wherever they may come. This means having evolving mechanisms 
for investing in ideas and solutions that span existing and 
established scientific fields and lead to new ones that cross 
disciplinary boundaries and that are high risk for potential 
for high reward. Our gold standard merit review process ensures 
a fair and expert hearing for each of those ideas. Flexible 
collaborations across our disciplinary directorates ensure that 
we are able to make awards for the very most promising ideas.
    Third, I wish to highlight the centrality of partnerships 
in NSF's effectiveness. We partner across government with the 
U.S. and international scientific community and with the 
private sector.
    Through the NSF Organic Act of 1950, the Foundation is 
established as a partnership between the National Science Board 
and the National Science Foundation Director. Our nation's most 
distinguished and respected researchers prepare decadal surveys 
and synthesis reports for the National Academies of Science. 
The pool of nearly 50,000 NSF proposals received annually and 
the reviews that we obtain for them from partners in the 
scientific community provide a rich snapshot of the directions 
and trends of U.S. science and engineering. The private sector 
relies on the steady stream of basic science that fuels their 
efforts at innovation and enhances their efficiency and 
productivity.
    NSF promotes the growing emphasis on open science through 
its policies for sharing publications and managing data. 
Finally, and I know of great importance to this Subcommittee, 
are people. Government, universities, colleges, business, and 
industries all depend upon a steady supply of well-prepared 
people in science and engineering, drawing on talent from 
across the diversity of our nation. All should have the 
opportunity to be inspired by the wonders of science, 
technology, engineering, and mathematics through learning 
opportunities in K through 12 schools, community colleges, 
universities, as well as in informal, self-directed, and 
lifelong learning environments.
    NSF has a unique role to play to nurture the next 
generation of STEM talent. That generation will carry the 
mantle of discovery and innovation into the future.
    NSF looks forward to its continuing responsibility for 
advancing the frontiers of discovery, innovation, and learning. 
I thank the Subcommittee for your support of the Foundation. 
This concludes my oral testimony. More detail on the four 
points I have briefly highlighted today can be found in my 
written statement. I will be pleased to answer any questions 
that you have.
    [The prepared statement of Dr. Ferrini-Mundy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you. I now recognize Dr. Zuber.

               TESTIMONY DR. MARIA ZUBER, CHAIR,

                     NATIONAL SCIENCE BOARD

    Dr. Zuber. Good morning. Thank you very much. Chairman 
Comstock, Ranking Member Lipinski, and Members of the 
Subcommittee, I appreciate the chance to speak with you on 
challenges and future opportunities for science. I would also 
like to acknowledge Chairman Smith in absentia and Ranking 
Member Johnson.
    In 1945, after radar and the atomic bomb changed the course 
of World War II, Vannevar Bush outlined a vision for the 
future. In Science, the Endless Frontier, he wrote, scientific 
progress is one essential key to our security as a nation, to 
our better health, to more jobs, to a higher standard of 
living, and to our cultural progress. Bush's vision resulted in 
the National Science Foundation.
    For nearly 70 years, NSF has trained scientists and 
catalyzed discoveries in all fields of science and engineering. 
Our unwavering commitment to promoting the progress of science 
has opened new windows on the universe, made possible new 
industries, and improved the lives of all Americans.
    NSF investments have given us the internet, touchscreen 
technologies, and better natural disaster warning systems. 
These discoveries have put millions of Americans to work and 
improved our nation's prosperity and security.
    The question before us is will the world's richest, most-
powerful nation continue to invest in our future? Do we still 
want to be the first to know, to understand, to discover, to 
invent? The Board is fully aware of these challenges: budget 
constraints, questions about priorities in the role of 
government, and of course, growing competition. Our government 
plays a unique role as a supporter of basic research. The 
private sector will not, cannot, invest large sums in open 
questions for 20-plus years as we did for the LIGO 
gravitational wave detector, for example.
    The discoveries of the past 70 years were made possible by 
Congress, presidential administrations, and the research 
community working together with a common purpose. We cannot 
allow today's challenges to unravel the partnerships that have 
supported NSF's core mission and benefitted our country.
    I offer three suggestions for how to move ahead. First, 
maintain the Federal Government's unique investment in 
discovery research across all fields of science and 
engineering. Second, prepare a STEM-capable workforce so that 
all Americans can participate in and benefit from scientific 
progress. And third, for the research community, maintain the 
trust and confidence of the American public.
    One of the Board's key responsibilities is to help NSF 
realize its vision. The Foundation must continue to push the 
frontiers of science investing wisely without fear of failure. 
This means in part identifying and setting priorities that will 
serve our long-term national interest. NSF has not picked 
winners and losers or determined in advance what discoveries 
will emerge in a project or even a field of science. Instead, 
NSF must continue to take advantage of the creativity and 
ingenuity of the best minds in America to drive science 
progress and let discovery be our guide.
    While the education and training of scientists and 
engineers remains at the heart of NSF's mission, to secure our 
future, we need a STEM-capable U.S. workforce at all 
educational levels. On the farm, the factory floor, the 
laboratory, and everywhere in between, workers are using STEM 
capabilities to innovate, adapt, install, and debug. This 
workforce must include women, underrepresented minorities, and 
blue-collar workers who have been hard-hit by automation and 
globalization.
    NSF is realizing this future through its unique integration 
of basic research and education and through its investments in 
fundamental research into STEM. Investing in people not only 
ensures that all Americans have the tools to thrive but it also 
guarantees that U.S. businesses will have the talent necessary 
to compete in a global economy.
    Finally, the scientific community must do its part. We must 
be champions of transparency. Our processes, institutions, and 
the conduct of research itself must be unassailable. We must 
work together to stamp out fraud, be forthright about the 
limits of our knowledge, and hold ourselves to our highest 
ideals. We must publish our data and describe our methods 
clearly so our peers can critique our results. For NSF, this 
means ensuring the integrity of merit review, advancing the 
best ideas, and promoting the progress of science in a way that 
is transparent, accountable, and can be understood and 
appreciated by taxpayers.
    As this Committee has recognized throughout its history, 
promoting the progress of science is essential to America's 
future. We look forward to working with you toward a 
reauthorization of NSF that empowers the nation's scientists to 
explore those endless frontiers. Thank you.
    [The prepared statement of Dr. Zuber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you, Dr. Zuber. Now we'll hear 
from Dr. Spies.

                TESTIMONY OF DR. JEFFREY SPIES,

            CO-FOUNDER AND CHIEF TECHNOLOGY OFFICER,

                  CENTER FOR OPEN SCIENCE AND

          ASSISTANT PROFESSOR, UNIVERSITY OF VIRGINIA

    Dr. Spies. Chairwoman Comstock, Ranking Member Lipinski, 
Ranking Member Johnson, other Members of the Subcommittee, 
thank you for inviting me to speak with you today.
    I'm the Co-Founder and Chief Technology Officer of the 
Center for Open Science, a non-profit technology company 
missioned to increase openness, integrity, and reproducibility 
of scholarly research.
    NSF has had a tremendous record of success by trusting 
sound scientific process. My recommendations today are in 
service of making an already-efficient process work better. To 
be clear, the issues that I will describe are not the same as 
headline-grabbing cases of fraud or misconduct, which are 
relatively rare. Science doesn't have an honesty problem. It 
has a communication problem.
    Scientific results gain credibility by demonstrating that 
evidence can be independently reproduced. This means that 
someone else can obtain similar evidence with the same data or 
with the same methodology. Reproducibility requires that the 
process used to obtain a result is described in sufficient 
detail. But science is complex. Brief descriptions of 
scientific papers cannot provide enough detail to capture the 
nuance necessary to facilitate reproducibility.
    We need to fall back on two simple concepts that everyone 
learned in elementary school: show your work and share. Because 
if much of the scientific process is open as reasonably 
possible, the materials, methods, data, software analyses, then 
replication can occur more easily, more frequently, and with 
greater efficacy. Openness should be the default for scientific 
communication, but currently it is not. The reward system in 
science is built around publishing. Getting published, however, 
has very little to do with research being reproducible. It has 
to do with novel results and clean narratives. But science is 
often messy and ambiguous. And if we hide the messiness away, 
we hamper scientific progress. We need to show our work and we 
need to share.
    These same solutions can also prevent and correct those 
rare cases of misconduct. And even when we can't show all of 
our work, for example when data must be kept private, there are 
still incremental steps that can increase credibility.
    Openness has another benefit. If paired with outreach and 
education, individuals who would otherwise not be able to 
participate in science would now be able to do so. And because 
these individuals are likely to be from groups typically 
underrepresented in science, we would see greater efficiency 
not only from an increased number of contributors but from the 
benefits that diversity brings to collaboration and innovation.
    NSF has already taken steps to encourage openness. In my 
written testimony submitted for the record I detail 
recommendations to expand upon that process. These fall into 
five categories.
    First, metascience. NSF could fund investigations of 
reproducibility and reproducible practices.
    Second, infrastructure. NSF could fund technology that 
could, for example, facilitate open reproducible practices or 
enable the analysis of data that must remain private.
    Third, training. NSF could add reproducibility training to 
its research fellowships and trainingships.
    Fourth, incentives. NSF could encourage the release of 
preprints for rapid dissemination of research. It could also 
fund pilots, like registered reports, where publication and 
award are based upon the importance of the research question 
and quality of the methodology, rather than the outcome.
    And fifth, community. NSF could convene stakeholders to 
discuss and adopt guidelines that would increase the pace of 
change.
    The scientific process that continuously improves our 
current understanding of the world is itself continuously 
improving. Critique and new evidence lead towards 
understanding. When we invest in NSF, we're investing in this 
process. When we invest in openness and reproducibility, we are 
making the path towards understanding easier to navigate. This 
path leads us incrementally towards the next innovation that 
will increase the quality of life here and abroad. I would like 
to see us get there as quickly as possible, and I believe that 
an increased focus on openness and reproducibility will do just 
that.
    Thank you for this opportunity, and I look forward to your 
questions.
    [The prepared statement of Dr. Spies follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. And now we will hear from Dr. 
Yamamoto.

                TESTIMONY OF DR. KEITH YAMAMOTO,

        VICE CHANCELLOR FOR SCIENCE POLICY AND STRATEGY,

            UNIVERSITY OF CALIFORNIA, SAN FRANCISCO

    Dr. Yamamoto. I am Keith Yamamoto, Vice Chancellor for 
Science Policy and Strategy and a molecular biologist 
researcher at the University of California, San Francisco.
    Thank you for the opportunity to discuss with you today two 
topics important for consideration of the future of NSF. First, 
the opportunities, imperatives, and barriers to achieving 
transdisciplinary science, and second, the wisdom and perils of 
prioritizing research around scientific or societal needs and 
challenges.
    First, transdisciplinary science which is virtually a 
merger of the physical and natural sciences, engineering, and 
computation as distinct from interdisciplinary or 
multidisciplinary interaction or cooperation between distinct 
endeavors.
    Reports from the National Academy of Sciences and the 
American Academy of Arts and Sciences call for the construction 
of a computational knowledge network that detects the 
relationships between different concepts, data, and 
technologies, enabling assembly of transdisciplinary teams, 
each team member with different specialized expertise working 
together to tackle difficult, important problems.
    Importantly, the role and need for specialization is 
maintained, but a general transdisciplinary literacy would fuel 
network approaches to solving problems that are invisible or 
intractable within siloed disciplines. Transdisciplinary teams 
would elevate the risk profile of academic research and 
increase the number of spectacular, unexpected advances.
    Of the 25 or so federal agencies that currently support 
scientific research, NSF is the best situated to establish 
transdisciplinarity, thanks to Vannevar Bush who we heard about 
before who proposed creation of the NSF in his remarkable 
report, Science, the Endless Frontier.
    He proposed the NSF as the sole federal agency to support 
all U.S. basic research and education programs. It is wholly 
possible, wholly probable, he said, that progress and the 
treatment of refractory diseases will be made in subjects 
unrelated to those diseases, perhaps in chemistry or physics.
    Support of all basic research and advanced science 
education should be centered in one agency because separation 
of the sciences in more than one agency would retard scientific 
knowledge as a whole.
    While Bush lost the battle for a single basic science 
agency, today's NSF is divided into seven disciplinary 
directorates that cover much of the scientific landscape 
necessary for today's and tomorrow's research and education. 
However, bureaucratic and fiscal silo walls establish 
intellectual silos as well, inhibiting effective 
transdisciplinarity.
    To achieve transdisciplinary research and education, 
actions are needed both within and outside of NSF. Within NSF, 
I suggest creation of a new organizational layer that floats 
above the directorates and are sectored into big idea or big 
challenge research programs that cross directorate boundaries. 
The directorates would retain most of the funds to be awarded--
let's say 90 percent--with the remainder transferred to the 
idea or challenge programs which would oversee the peer review 
process and supplement awards to transdisciplinary projects, in 
effect, returning funds to directorates that choose to co-host 
transdisciplinary teams.
    Education programs would continue to emphasize specialized 
expertise but would additionally build transdisciplinary 
literacy to motivate team-based research.
    Outside of NSF, the OSTP, for example, might be charged 
with framing a few societal grand challenges with funding to 
incentivize multiple federal agencies to develop joint programs 
to leverage their particular strengths and resources. This 
would begin to address current inefficiencies, fragmentation, 
and competition between federal agencies.
    My second topic examines prioritization of NSF research 
around scientific or societal needs and challenges. Despite 
Vannevar Bush's passionate prioritization of curiosity-driven 
basic research, careful development of NSF grand challenges, or 
big ideas, is justified by the urgency to address certain 
societal needs and by the imperatives of social justice to 
correct disparities in access to social services.
    Well-enunciated grand challenges will broaden the minds of 
those who participate and will broaden the tent to attract new 
participants. Imagination will still rule.
    The scale and scope of the challenges will determine if 
they best reside within NSF or rather merit attention and 
support across multiple agency boundaries.
    In conclusion, NSF meets its mandate to support a broad 
spectrum of basic research. However, the well-justified 
organizational boundaries that separate its directorates create 
barriers to achieving transdisciplinary science. Novel 
organizational approaches should be considered both within NSF 
and between agencies to lower those barriers.
    Finally, NSF can stay true to its mission to support basic 
discovery and even improve upon it by careful framing of 
support programs in the context of big ideas and grand 
challenges.
    This concludes my testimony. I would be pleased to answer 
any questions that you might have.
    [The prepared statement of Dr. Yamamoto follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you all. And I now recognize 
myself for five minutes.
    I appreciate the three guidelines, Dr. Zuber, that you laid 
out, maintain the investment. And I know we're not addressing 
the budget at all today but I can say for myself and probably a 
few others here, we are very interested in maintaining that 
budget. And so we are seeing discussion of cuts elsewhere. I 
think this is a very important time and very important work 
that we need to maintain that type of investment. And of 
course, the STEM-capable workforce that you mentioned is 
another important area to both create that pipeline but then 
also make sure those kids know that we are going to maintain 
the investment. So this is going to be a continued priority for 
us. And then thirdly, maintaining the trust and confidence of 
the public, which you've all addressed today.
    And so I wanted to focus a little bit on that 
transdisciplinary approach and how we are going to take 
advantage of this opportunity I think we have now where you 
have the private sector very interested in investment, you need 
to maintain the public investment, and how are we best going to 
maximize both? And I want to emphasize that anything private is 
not a substitute for the public because we still need that 
basic research, and much of the private can often be a little 
bit more risk taking. And I often hear that in talking to 
people who are interested in the private research, that they 
realize they are going to have opportunities that are a little 
riskier or a little more outside the box than by nature some of 
the public research.
    But I wanted to follow up with Dr. Yamamoto. What has been 
your experience when sort of taking outside-the-box ideas to 
the National Science Foundation and how can we make that easier 
for them? And what guidelines might be the best to adjust or 
how do we best make that work?
    Dr. Yamamoto. Right. So let me start by saying that I think 
that NSF is as an agency quite welcoming to broad-based ideas. 
But as I said, the barriers that are intrinsic to bureaucratic 
separation of directorates in this case are problematic. And my 
own experience in carrying some big transdisciplinary ideas and 
approaches to the NSF was sort of met with being handed an org 
chart of NSF and said go out and shop your idea around to the 
separate directorates. There's not a home, an intrinsic home, 
for these big kind of ideas.
    So my idea would really be to create such a home, to be 
welcoming of those kinds of approaches for every grant 
application that's made, that currently, that when they cross 
those boundaries, struggle to find a natural home and may 
struggle in peer review as well for that reason. And so I think 
that that is the kind of thing that is necessary. I might say 
that this idea of kind of programmatic focus that floats over 
the boundaries that separate disciplinary approaches is 
basically the way that we've organized the research approaches 
at UCSF where we have conventional departments like every other 
institution that are separated by these disciplinary 
approaches, and then floating over those are research programs 
that really have a big say about how resources are deployed, 
how we reach into different departments and bring together 
investigators that can merge their skills and really go after 
problems that otherwise would not be solvable or even 
detectible by individual researches.
    So this is an idea and a way that has been tested and I 
think would help to address this challenge and opportunity for 
transdisciplinarity.
    Chairwoman Comstock. Thank you. And Dr. Spies, could you 
address when we have more openness and we get that, how that 
both helps the public research as well as the private and how 
that might help us maximize the value in both areas as well as 
make them more usable, data and information, and how you would 
see that working in an ideal situation.
    Dr. Spies. Yeah. I appreciate the question. In an open 
framework, we think about knowledge as a public good, and 
therefore its accessibility and the credibility that openness 
brings to it is available to anyone. Obviously we need to 
facilitate that sometimes, but that basic accessibility is 
still there.
    We've heard many examples of what has come out of the NSF 
from a basic science standpoint. So if we can increase the 
quality of that and increase the efficiency of that work, the 
work that comes out of this basic science programs, we can see 
then these end users receiving those benefits. They'll see the 
same efficiency gains. They'll see the lower risk perhaps 
because the quality would have been increased.
    Chairwoman Comstock. And maybe in terms of the community, 
is there some of the fear as you were talking about that 
everybody makes mistakes. We were talking about how we find 
problems and things. But is there sort of a cultural fear of 
having that out there instead of sort of understand, well, 
let's have a whole bigger community that's finding those 
mistakes sooner that we all make and sharing it in a way that 
helps for collaboration? You know, Thomas Edison obviously had 
to go through a lot of experiments before things got right. If 
he was sharing this in a bigger community, it might have all 
happened faster, right? Not that you don't want to--you know, 
when you have your research, you want to maybe keep that to 
yourself, too. I understand. But do we have a culture in the 
scientific community that makes it sort of punishing to have 
that information out there and shared?
    Dr. Spies. This is certainly a cultural issue, and I don't 
know if it's necessarily punishing, but we don't really allow 
discourse around failure. Peer review happens after the work 
has been done. And so there's really very little influence that 
that can have because you already did the work.
    And so it's a cultural issue. The perhaps fear I think is 
across any area. No one wants to make mistakes, and no one 
wants to be seen for these mistakes. But we need to embrace 
them. That's a critical role in science. It's a very important 
part of the scientific process.
    Chairwoman Comstock. Okay. I know I'm over my time, but if 
our other witnesses had anything to comment in that area, I 
just wanted to give you an opportunity, too.
    Dr. Zuber. So I would just say that, you know, in science, 
if you make a mistake, it's okay. But it's better if you 
correct the mistake yourself rather than have somebody else 
correct the mistake. So I think we ought to incentivize a 
system where mistakes within groups are--that it's recognized 
in a positive way.
    Chairwoman Comstock. Okay.
    Dr. Ferrini-Mundy. I would just add, and perhaps we'll have 
more time to talk about this later, that issues of open science 
and the ways in which sharing can occur happen in very 
different ways across different scientific fields. And so 
learning across fields in fields like astronomy, for example, 
where public data has been a norm for so long, we have a lot to 
learn about how mistakes are determined and how we can share 
and accelerate findings.
    So there's a lot on this topic that's of great interest to 
us at NSF.
    Chairwoman Comstock. Great. Thank you. And I now recognize 
Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you. I want to start with Dr. Spies. I 
want to applaud your work on making data more open. We know 
there are issues around that that sometimes there's reasons why 
there have to be--some data cannot just be all put out there 
directly as it is. But some have proposed that government 
agencies should only be allowed to make regulations based on 
studies that have posted all their data on line. But in 
practice, this would make the majority of available research 
off-limits to government agencies.
    Are there ways the government can increase the openness of 
the research it relies on without undermining its ability to 
use all the available science?
    Dr. Spies. Yeah, there are many cases where we simply can't 
be completely open with work with respect to data privacy, 
security, or even just proprietary advantage. Some people need 
to maintain that intellectual property. But there are many, 
many ways that you can still be open, you can still be 
transparent and really, gaining that efficiency and credibility 
and accessibility by taking certain steps. It's not an all-or-
nothing thing.
    For example, with data privacy, there's a concept called 
secure computing where the data can remain private, but you can 
still analyze it. Other people can still analyze that, but the 
data is never made fully available. Or you could release your 
methods and materials. So keep the data private but release 
everything else around it, and this adds to the credibility. It 
might not add to the accessibility of that data, but you can 
still have a credible experience. You can still allow people to 
come into that and audit that process if need be. So we can 
still gain that credibility that we need in science.
    Mr. Lipinski. Thank you. I want to move on. I want to ask 
Dr. Yamamoto, can you just briefly say what is the difference 
in your mind between interdisciplinary and transdisciplinary 
research?
    Dr. Yamamoto. Sure. Transdisciplinary research really 
attempts to merge the sciences. I think we have an opportunity 
to do that now. It's quite remarkable, in which the concepts, 
the driving concepts that are at the basis of different 
disciplines are applied and used to move forward, other 
disciplines that haven't had those concepts before or 
approaches. And so----
    Mr. Lipinski. Okay. Let me come back to you. I just want to 
make sure that we had that out there because I had that----
    Dr. Yamamoto. Right.
    Mr. Lipinski. --question. I just wanted to make sure I 
understood that that's what it was. I want to ask Dr. Ferrini-
Mundy, a few years ago there were funds that were set up to 
fund interdisciplinary research at NSF, and that no longer is 
there. What happened with that? How did that go?
    Dr. Ferrini-Mundy. I think you may be referring to our 
INSPIRE Program?
    Mr. Lipinski. Yes.
    Dr. Ferrini-Mundy. And that ran as a pilot. One thing that 
we're finding now at NSF over time is that our work across the 
directorates is just as prevalent for us as our work within 
directorates. And so we have already initiated a number of 
efforts at NSF that are transdisciplinary as well as 
interdisciplinary, new language that is in the same family as 
convergence research that brings together experts from multiple 
fields.
    And so I would put examples on the table. Our innovations 
at the nexus of food, energy, and water systems is one of the 
initiatives that we started that was meant to draw in 
scientists from multiple fields to solve challenging problems. 
Understanding the brain is another. Risk and resilience is yet 
another, NSF includes as another.
    So what we've been moving toward are a variety of efforts 
that signal our serious commitment to promoting science that 
cuts across disciplines in various ways.
    We also do have a follow-up within our sort of options for 
continuing to propose interdisciplinary research that occurs 
and it's called RAISE. It's an interdisciplinary program that 
has some of the same elements as INSPIRE had. It's a way that 
people who bring an idea that doesn't squarely fit a particular 
discipline can at least follow a set of steps to bring that 
idea to the Foundation.
    But what we are seeing in our efforts is a lot of interest 
that spans directorates, a lot of partnerships among 
directorates to encourage this kind of research.
    Mr. Lipinski. And Dr. Yamamoto, do you think that this--you 
had talked about some things that you would like to see. Is 
there anything else that you believe NSF could do better in 
order to encourage this type of research?
    Dr. Yamamoto. I think what NSF is doing is quite good. I 
think that my concern is that we're missing opportunities 
because programs, investigators, teams of investigators that 
come to the NSF with ideas that cross disciplinary boundaries 
are sort of viewed as secondary, secondary case. Not as 
secondary citizens but secondary case in which they really need 
to find, go out and find a home.
    And what I would suggest is that NSF recognize this 
opportunity for transdisciplinarity by setting itself up to 
welcome and support every application that comes forward in 
this mode to ask where are the best ways, what are the 
directorates that can best support this kind of approach that's 
being brought forward to us so that it's not a special case, 
that every case that comes forward recognizes that we have an 
opportunity to use transdisciplinarity and that it's not 
something that's new or separate.
    Mr. Lipinski. Thank you. I yield back.
    Chairwoman Comstock. I now recognize Mr. Hultgren.
    Mr. Hultgren. Thank you, Madam Chair. Thank you all so much 
for being here. I appreciate your work and I also appreciate 
you coming here, testifying today. This is a very important 
subject to me, I think for all of us. But I am grateful. Being 
from Illinois, the great ecosystem of science that we enjoy in 
Illinois, some wonderful universities, our great laboratories, 
the cooperation that we see between them, mutual benefit. And 
so with all of that, I think there's a reason why Illinois is 
well-represented on this Committee. I've got some great members 
that we really enjoy working together, getting good things done 
in science in Illinois.
    One thing that has been important to me is access for 
researchers to the most advanced scientific infrastructures at 
facilities such as Blue Waters supercomputer at the University 
of Illinois. I've also had the opportunity to tour Stampede 
down in Texas last year.
    Dr. Ferrini-Mundy, if I could address my questions to you, 
how does NSF look at the capabilities of a tool like Blue 
Waters when taking into account the different kinds of 
questions researchers are asking? Many researchers have 
described to me the issues with data management being more 
important than just raw speed for certain types of problems. 
Does NSF need to have differing capabilities in computing 
infrastructure, and how does NSF plan to address any type of 
gap when one of these tools goes off-line?
    Dr. Ferrini-Mundy. Thank you for your question, sir. NSF, 
through its Office of Advanced Cyber Infrastructure, supports 
the development, acquisition, and provision of state-of-the-art 
cyber infrastructure resources as you know. Those include tools 
and services, and they focus both on the high performance 
computing capabilities, such as those at Blue Waters, that are 
essential to the advancement of science and engineering 
research as well as--so we call that leadership computing. 
Those are the unique services and resources to advance the most 
computationally intensive work such as what is carried out at 
Blue Waters.
    We also focus on what we call innovative high-performance 
computing resources. So these are a set of diverse, highly 
usable resources at large scale. The work at Stampede that you 
mention is in that category.
    So regarding Blue Waters, it's not appropriate for me to 
comment here on any future solicitations or investments, but we 
are mindful of the importance of avoiding gaps in our 
leadership computing services. I also would point to a recent 
National Academy study titled Future Directions for NSF 
Advanced Computing Infrastructure. That has a number of 
recommendations, one of which is that NSF should provide one or 
more systems for applications that require a large, single, 
tightly coupled parallel computer. And we certainly take the 
strategic advice of the community very seriously.
    Mr. Hultgren. Okay. Thank you. Dr. Ferrini-Mundy, I'm going 
to continue with you if that's all right. But switching gears a 
little bit, the average age for a first-time principal 
investigator for NIH-funded research has risen to 43 years of 
age. Albert Einstein, as we know, was in his 20s when he 
presented his theory of relativity. He was 46 when he won the 
Nobel Prize. An average age of 43 for first-time PI seems to 
miss the most creative and productive years in a scientist's 
career. I wondered, do you know the average age of a scientist 
receiving their first regular NSF grant?
    Dr. Ferrini-Mundy. So thank you for the question. We 
actually do not request information about age or date of birth 
in our applications, and we do make an optional check box for 
people to indicate the date of their degree. So we can speak in 
terms of date of receipt of the Ph.D. in terms of age. And what 
we have seen is that in general, the early career, which would 
be people who are seven years or less from their Ph.D. at the 
time of proposal action, the funding rate for our early career 
folks in comparison to those who are past that time, who are 
later, is quite close, roughly 18 percent for our early career 
folks, 22 percent or thereabouts over the years for our people 
coming in from later careers. So that is, you know, like 18 
percent of the early career applicants are getting awards 
versus 22 percent of the later career applicants.
    In terms of the percentages, sort of how the balance of our 
portfolio looks, it's sort of about a 20/80 balance with about 
20 percent of the awards going to the early career PIs and 
about 80 percent going to those of later careers.
    Mr. Hultgren. Would that be with regular awards or is that 
special set-aside programs?
    Dr. Ferrini-Mundy. Those are--that's across the full 
spectrum of awards. We do have a wonderful program called the 
Faculty Early Career Award Program that is meant to bring 
people in within some number of years of their Ph.D., and 
that's really a special program for us.
    Mr. Hultgren. I appreciate the conversation. I do think 
it's important for us to continue to discuss this----
    Dr. Ferrini-Mundy. Yes.
    Mr. Hultgren. --of making sure that we're maximizing 
opportunities to those who are younger, you know, more quickly 
after they've gotten their degree. Sounds like there's some 
steps there, but I want to make sure that we keep that focus. 
So thank you. My time's expired. I yield back. Thank you.
    Chairwoman Comstock. Okay. I now recognize Ms. Esty.
    Ms. Esty. Thank you, Chairwoman Comstock and Ranking Member 
Lipinski and to our members of the panel for this very 
important hearing today.
    We had some discussion some of us last week at a briefing 
with NSF and the Department of Energy about the critical 
importance of infrastructure, the basic scientific 
infrastructure for attracting the best minds. There's been 
discussion, all of you to some extent, are talking about the 
importance of supporting researchers but encouraging and 
supporting that STEM workforce.
    So Dr. Ferrini-Mundy, could you talk a little bit about 
that? I look at the fact that, for example, the discussions we 
had about the Hadron collider last week. I look at Yale 
University just outside my district and the work that's being 
done there on precision detectors and how that fits into these 
larger investments. Could you talk about that for a moment, 
please?
    Dr. Ferrini-Mundy. Sure. And there are so many factors that 
relate to these decisions. It's a lot about prioritization and 
how the National Science Foundation, in partnership of course 
with the scientific community, with the Congress, with the 
National Science Board, with the Administration, how we 
actually set priorities, and it's an activity that's under way 
constantly with us. And one very strong commitment, of course, 
for the agency has been our investment in infrastructure over 
may decades through our Major Research Equipment Facilities 
Construction Account where we are always looking at advice from 
the community. So decadal surveys are quite critical for us as 
we think about what next infrastructure is needed.
    But at the same time we need to take some risks, and we've 
heard about LIGO, and we know that there will be some piece of 
that infrastructure investment that needs to be focused towards 
the high-risk and potentially high-reward investments that we 
can't predict where the science will take us.
    The other balancing piece in this business of prioritizing, 
of course, is in ensuring that we have the adequate resources 
to fund the basic research that occurs in that infrastructure. 
And so it's a constant calculation for us where we're 
considering lots of inputs and lots of factors. But suffice it 
to say, we're certainly committed to our role with scientific 
infrastructure as we have been for so long.
    Ms. Esty. Thank you, and I again want to underscore what 
many of you've talked about. And it has been a bit of a 
contention in the last few Congresses about whether Congress 
should be directing that research or not, and frankly, I think 
for the basic research, I would rather rely on scientists who 
have a better sense of where the science may be going and my 
commitment to continue to support that.
    I know in fact many Members of Congress tend to be science-
phobes. We may not be the best people to be directing that. 
That's not that we don't have an oversight role. Of course, we 
do. But I think as you've amply illustrated, that the United 
States has a leadership role in basic science, and we have to 
follow that where it takes us.
    You've all also mentioned the importance of 
interdisciplinary and interdirectorate work. So a quick answer. 
If people have ideas, are there things Congress should or could 
be doing that would incentivize or remove barriers for that 
interdirectorate work?
    Dr. Zuber. Well, the most important thing that Congress 
could do is not take steps to create additional silos, okay? 
And so by specifying funding in directorates, that, of course, 
creates silos.
    Ms. Esty. Thank you. And again, that goes back to my 
earlier point about deferring somewhat to the scientific 
community to have the flexibility to move funding where the 
research takes us.
    Dr. Spies, you talked a little bit, actually quite a lot, 
about the incentives to share work. This is something we 
discussed a lot over the last Congress or two. Can you help us 
think a little bit about--and this is probably a subject for 
another hearing--this problem about publication and the 
incentives to publish something novel and not to share results 
that don't turn out in a novel way or that don't actually lead 
to something directly actionable but in fact is really 
important for other people to know about because you may know 
this is not a profitable avenue. How do we square this right 
now? We have this problem about needing to publish to get 
research money, and yet if people are hiding their results 
because it doesn't seem actionable, it means you may have 
wasted money with a lot of people kind of following down that 
same path. Anyone have thoughts on that point?
    Dr. Spies. Yeah. We have an incentives problem around 
publishing. And so we need to find a way to incentivize people 
to be more open, to take the risk, to be okay with failure, to 
put that out there and realize that that is adding to the 
corpus of knowledge. Any evidence is valuable in thinking about 
science.
    And so there are ways to do this. We really need to think 
more about this and test some of these things. The field of 
metascience, we need more of a commitment to that to really 
understand what are the most efficacious ways to incentivize 
these things? Registered reports I think is a very good example 
where we review the work based on the impact of the questions 
and the soundness of the methodology. And then no matter what 
the outcome, you still get a publication. Scientists still get 
funding. They still get the publication. They still get that 
reward. And so they have no reason then to need to hide things 
or gloss over details to sell it to journals.
    Ms. Esty. Thank you very much. I'm seeing that I'm over, 
but maybe we could have a hearing on this issue because I think 
it is really important and it's something we could contribute 
in the field right now because a lot of scientists are very 
frustrated with the imperative right now. So maybe we could ask 
the Chairman and Ranking Member to do that. Thank you very 
much.
    Chairwoman Comstock. Thank you. And I now recognize Ms. 
Bonamici for five minutes. Oh, I'm sorry, Mr. Webster for five 
minutes. Sorry.
    Mr. Webster. Thank you, Madam Chair. Dr. Yamamoto, I had a 
question about one of the things you said. You talked about an 
additional organization layer, and we here in Congress are 
fantastic at doing that in government. And I'm just wondering, 
does that add to maybe an inefficiency to it or give me a 
little more explanation.
    Dr. Yamamoto. Sure. Yeah, the kind of knee-jerk response to 
any additional bureaucratic layer is that it's going to slow 
things down or add complexity. The object of this additional 
layer is in fact to have research programs that float over the 
disciplinary directorates. And so it crosses those boundaries 
in a natural way. So that would be the idea of this additional 
layer and that they would define the elements of the different 
directorates that would come into play, that cooperate together 
to work in a given research programmatic area.
    So that's the object, is to undo the damage, the natural 
damage, that bureaucratic boundaries do in setting up an 
organization that's necessary to have such separate entities. 
But anytime you do that, you've created a silo. And so this 
additional layer would float over those and cross those 
barriers.
    Mr. Webster. So would it be more free-flowing?
    Dr. Yamamoto. That would be the idea is that every grant 
application, for example, that would come into the NSF, would 
flow first into these research areas. And that entity would 
then say this is an opportunity to draw from these two or three 
or four directorates that could best come together to address 
this.
    So I would imagine, I would hope, that downstream what we 
would see increasingly is that teams of researchers composed of 
investigators with very different backgrounds and expertise 
would come to the NSF with ideas that definitely don't fit into 
any single directorate. But by going into this additional 
layer, they would always have a home and that that additional 
layer would then sort out which directorate would be able to 
contribute to that application.
    Mr. Webster. Thank you very much for that answer. Dr. 
Spies, would your--matter of fact, I liked what you had to say 
about an open process. We need some of that here, too. But my 
question would be would this open process add to or maybe 
remove from the subjectivity of the grants and resources and 
the distribution thereof?
    Dr. Spies. Open scientific process is going to be adding to 
what we know about science. And so as much as the quality of 
that is increased, I would think that it would increase 
decision-making. Related to subjectivity, the scientific 
process doesn't care about outcome. It's not an important part 
of it. The outcome is what happens from the scientific process. 
And so if we focus more on the process, more on the work flow, 
more on these other components that lead us to these outcomes, 
which we as humans really appreciate, which you appreciate in 
making policy, but if we focus on that process, then we can 
have more objectivity I think just across the board. And so 
again, if that can aid decision-making, then it should do so 
with regards to that process, to those methods.
    Mr. Webster. So you would believe that the better the 
process, the more perfect the outcome?
    Dr. Spies. The better the process, the smoother the way 
towards understanding, whatever that is. I won't say perfect. 
Science admits that it's never perfect. We are always 
incrementally moving forward. But process, good process, open 
process, can make that a more efficient track down that road.
    Mr. Webster. Thank you very much. I yield back.
    Chairwoman Comstock. Thank you. I now recognize Ms. 
Bonamici for five minutes.
    Ms. Bonamici. Thank you very much, Chair Comstock, and 
Ranking Member Lipinski. And thank you to all of the witnesses 
for being here today. It's been a very good discussion and kind 
of a continuation of our earlier hearing.
    One of the things I wanted to follow up on, Dr. Ferrini-
Mundy, you talked a little bit about risk taking. And that's 
something that we have to recognize as policymakers when--I 
share the concerns raised by some of my colleagues about the 
problems of having Members of Congress decide which 
directorates to fund at certain levels. Do we have oversight 
responsibilities as Ms. Esty said? Of course, but making those 
decisions when we don't know what's going to be at the end of 
the research is something that we have to keep in mind as we're 
deciding funding. Can administrations set priorities? 
Absolutely, but they shouldn't be at the risk of other areas.
    So I've enjoyed several times participating in the Golden 
Goose Awards, an event that the American Association for 
Advancement of Science, AAAS, has helped launch and organize 
each year to recognize the importance of federally funded basic 
scientific research. We don't know what discipline the next 
innovative transformative research will come from, but we know 
that NSF-supported basic research has led to advances in 
technology, in medicine, agriculture, and many more fields.
    Last year one of the Golden Goose Awardees was the honeybee 
algorithm. So in the late 1980s, several engineers collaborated 
with a bee researcher, and they studied how honeybee colonies 
allocate foragers. And years later then, two researchers 
applied that honeybee foraging model to shared web hosting 
servers, something that wasn't thought of in the early '80s 
when they were doing the original modeling. And their research 
resulted in an algorithm that speeds up the process every time 
we check our bank account balances, do an internet search, 
check the score of a March Madness game which some people might 
be doing at this moment.
    So a question for all of the panelists, that the honeybee 
algorithm is a great example of obscure or perhaps silly 
sounding basic research that led later to technological 
advances. So what might be lost by withholding federal funding 
from research areas where we don't know what the benefits will 
be at the outset? We don't know where that research will go.
    So what are the problems? What do we lose by withholding 
funding because of that uncertainty or that risk? Dr. Ferrini-
Mundy, let's start with you.
    Dr. Ferrini-Mundy. Sure. Thank you. Thank you for the 
question and the great explanation of the honeybee algorithm. 
Very helpful.
    First of all, it needs to be--we need to be clear that all 
at NSF take very, very seriously the responsibility of 
carefully investing taxpayer dollars----
    Ms. Bonamici. Of course.
    Dr. Ferrini-Mundy. --and being prudent and responsible. At 
the same time, as you point out, it's very difficult to tell 
with certain basic research proposals what the long-term impact 
and payoff on the country, on our economy might actually be.
    And so we have so many wonderful examples. You've pointed 
out one, but there are wonderful boons to industry that started 
with no obvious commercial applications. And we have results 
about GPS, the internet, AI and computers where at any stage 
some of that basic funding in its proposal form might have not 
looked like it would lead to anything.
    So I think I certainly agree that we need to stay open. We 
need to use the expertise of the scientific community to select 
the, you know, one in five grants that we are able to fund, 
both for those that will continue to move science along 
incrementally as is needed and for those that look like long 
shots but that have great promise in terms of their basic 
contribution. There's one other point I'd want to make on this 
which has to do with choosing among areas of science. It's a 
tricky business because keeping the basic investment going in 
all areas of science, the fundamental research investment, is 
quite important so that there is this constant pipeline and 
flow of new ideas accumulating, new theories being developed, 
which may then find their use someplace else.
    Ms. Bonamici. Thank you. I'm going to try to get in another 
question. Dr. Ferrini-Mundy, the social, behavioral, economic 
sciences grants have funded ground-breaking research across the 
nation including at Oregon State University some important 
research on how communities research extreme weather events. If 
funding for the SBE grants at NSF were to be cut significantly, 
some are suggesting by 50 percent, this would also result in 
fewer SBE program officers within the agency. So given the 
breadth of research in the directorate currently, there could 
be gaps in expertise. So is that a reasonable assumption and 
how might this affect the ability of the agency to review SBE 
grants for their merit or potential to benefit the nation? And 
maybe we can get Dr. Zuber in the last couple seconds as well.
    Dr. Ferrini-Mundy. So I just want to reiterate our central 
commitment to the importance of the social, behavioral, and 
economic sciences investments. The benefits coming that we have 
seen in cybersecurity, disaster preparedness, detecting reading 
problems early on--all of these fan from fundamental research 
that would be missing if we were not able to invest in the ways 
that we do.
    Dr. Zuber. Again, if I could just add, you know, trying to 
think about research that actually serves the nation, a couple 
of things in SBE--facial recognition studies actually went into 
the analysis, the algorithmic analysis of identifying the 
marathon bombers in Boston. And another recent study, that 
violent extremism, the tendency to go into it, isn't just an 
economic thing, that there are actually moral imperatives. So 
if one is trying to dissuade young people from joining extreme 
groups, one needs to find a moral alternative.
    And another thing that I think is really the 800-pound 
gorilla is that we need to think about jobs and job retraining. 
And that is squarely a social science issue. And so I think at 
this time where we have so many issues in the country that 
really affect people, okay, that the social sciences really has 
an ever more important price to pay.
    Ms. Bonamici. Thank you. My time is expired. I yield back. 
Thank you, Madam Chair.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Beyer for five minutes.
    Mr. Beyer. Thank you, Madam Chair, very much. And thank all 
of you for being here. This is--the best part about being on 
the Science Committee is being able to talk to you.
    I wanted to pile on to Congressman Hultgren's comments 
about the age mismatch. Some quick research. Albert Einstein 
was 27, 1906, in Bern, Switzerland, when he came out with 
Brownian motion, photoelectric effect, special relativity. 
Werner Von Heisenberg was 26 when he articulated the 
uncertainty principle. Marie Curie was 30 when she articulated, 
discovered radioactivity.
    And I'd be very grateful if you and Dr. Cordova would look 
at the 80/20 mix and figure out where to make it 20/80. It's 
sort of part of the--I'm not a mathematician, but I've heard 
again and again that there are very few genius mathematicians 
beyond age 30. Almost all prodigies are young. Doctor?
    Dr. Ferrini-Mundy. Thanks so much, and I would just add to 
that, we have a significant investment in young professionals 
through the graduate student programs and through post-doctoral 
programs, too. So we really are working very hard to make sure 
that we keep that next generation ready and able to lead us in 
science in the future.
    Mr. Beyer. Great. Thank you. Dr. Yamamoto, I'm going to 
pick on you because you're a professor of cellular and 
molecular pharmacology. And I love the physical sciences, you 
know, particle physics and cosmology and relativity and 
biochemistry. But equally important are all these social 
sciences, the SBE that we've talked about.
    I'm especially thinking, you know, Daniel Kahneman, in his 
Thinking Fast, Thinking Slow, has gotten so much attention 
about how we make decisions which, given that we're here in 
U.S. Congress, is phenomenally important.
    Can you look at it as a biologist, chemist, physicist, on 
what you think the importance of the social and behavioral 
sciences are?
    Dr. Yamamoto. I can approach this through an issue that's 
very important to me. I was involved in launching this notion 
of precision medicine. And precision medicine has at its heart 
an understanding of biological processes that is founded in 
understanding the mechanisms of the ways that those processes 
function. And so when you start thinking about disease, you 
come up right against the complexity of biological systems and 
realize that the Human Genome Project, for all the things that 
it brought us, the genome is just one element that goes into 
the risk of an individual for getting a disease, the course of 
that disease when they get it, and so forth and other elements. 
There are many other elements that come into play, objective, 
scientific elements like small molecules that are in the 
bloodstream, the microbiome that inhabits all of us. But in 
addition, the impact of environmental factors, social and 
behavioral elements that very much contribute. So what 
precision medicine says is that we need to mound all of these 
layers of information in a Google Maps like way that allows us 
to see correlations and connections that were otherwise 
invisible when the disciplines are maintained separately.
    And so if we can do that, build that Google Maps and be 
able to establish what the links are between a given behavioral 
component or environmental component and what we see in the 
gene or small molecule or a microgut's inhabiting of the 
organism, then we can begin to better understand what the 
various components that contribute to a biological process or a 
disease.
    So it's a long way of saying that I think it's really 
essential that as biological scientists that are sort of bound 
by collecting objective evidence, that these other components 
are just as important and we really need to build that in.
    So it's great that the National Science Foundation 
understands that and has a directorate that really is focused 
in that way.
    Mr. Beyer. Thank you, Doctor, very much. And Dr. Zuber, 
just a few seconds of building on that. Looking at psychology, 
especially as a so-called soft science, SBE, as Chairman of the 
National Science Board, what's your perspective on the 
importance of investing that for America's mental health?
    Dr. Zuber. So obviously it's crucially important, and NSF 
of course does the fundamental science, the basic science, that 
then feeds into the more directed, health-related work that's 
done at the NIH, okay, and there really is very good cross-
agency discussions on these and other basic science/more 
disease-related problems.
    But I just wanted to make the point here that we are on the 
verge of a real revolution in the social sciences. So right 
now, computation in the social sciences, high-performance 
computing, they're using as much in those fields as math and 
physical sciences that NSF used ten years ago, okay? So 
something that's considered a soft science is really becoming 
very data-driven, very quantitative. And you know, we're 
essentially at the beginning of a golden age here. So it would 
be a shame to cut it back.
    Mr. Beyer. Thank you very much. Thanks, Madam Chair.
    Chairwoman Comstock. Thank you. And I know Dr. Zuber and I 
had talked about young people yesterday and the importance of 
having them engaged. And I just wanted to, in addition to 
having Eric Young here from Dominion High School, shadowing us 
here today, I know we had some other students here. But I 
wanted to just mention, because this is such an extraordinary 
young man who I was able to meet with yesterday, I think he's 
interested in the precision medicine area and has now been 
accepted at MIT but has a few other options available. But 
let's see. He just won--his name is Pratik Naidu. It's N-a-i-d-
u if I'm not doing it justice. But he is a senior at Thomas 
Jefferson High School, and he was one of the ten finalists in 
the Regeneron Science Talent Search, one of our nation's oldest 
and most prestigious science competitions for seniors in high 
school. And he created a machine learning software that can now 
examine how cancer genomes interact and help with new drug 
therapies. He was working with researchers up in Boston. So he 
is partnering with them from his high school up in Boston. So 
I'm sure they'll be thrilled if he goes to MIT and is up in 
that area. It was titled The DNA Looper. And this device can 
actually learn and give new insight in the ongoing search for 
cures for cancer.
    And then just for an add-on because he was such a charming 
young man, he happened to be an Eagle Scout in eighth grade. So 
clearly an overachiever here. And then also on the side he had 
founded a reading group for veterans, and he called it The 
Classics Project where he was studying classical war texts and 
how they relate to our current society. And he was--of course, 
he took Latin so he was reading these I guess in the original, 
Homer's Odyssey, and then taking that and working with our 
veterans.
    So I think that kind of leads to the overlapping of how you 
have somebody like this who whatever project he might come to 
in the future, we'll want to have some type of box to fit him 
in. But he clearly was a very talented young man here. So I 
think it kind of brings to life all the testimony that you all 
have given today. Dr. Yamamoto, if you'd like----
    Dr. Yamamoto. I wonder if I could just comment on this age 
issue. I think it's terrific that NSF, NIH, other agencies are 
building programs to single out early investigators that are 
coming to these agencies for funding. But in my view, the 
harder the problem is not that we're not giving enough grants 
for young investigators. It's that they're getting to the 
system too late. The training is taking far too long, and I 
think that we need to go back and look at sort of first 
principles of what is needed for a Ph.D., for example, in the 
sciences? And there's a National Academy study that is just 
getting going. I'm on the committee to look at STEM graduate 
education and see if we're really doing the right thing. That 
is, are we really providing students with what they need to 
then emerge as Ph.D.s and go out and be successful? How 
important is the post-doctoral study period? What should be in 
that element and how does it contribute or not? Are we just 
aging our trainees because we need them to be the workforce to 
do experiments in our laboratories, for example? And I think 
that going back and looking at those principles is really 
critical. In my view we could shorten the training period a lot 
and really--my own goal would be to say can we develop a system 
that goes from the first day in graduate school to being 
independent investigators from what it is now to something in 
the four- to six- to eight-year range, getting registered to 
being an assistant professor applying for an NSF grant? And I 
think that that's a very doable thing. We've been remiss in not 
looking at those principles, and I think that we've fallen into 
the trap of thinking that we need this mass of people to man 
our laboratories and carry out our experiments, rather than 
thinking about what is it that they need, when can they use 
their energy and creativity in the most efficient way?
    Chairwoman Comstock. Right. I think that was that ecosystem 
that you talked about creating. So, thank you for that 
additional insight. And I'm sorry, we had two people come back. 
So we recognize Ms. Rosen for five minutes.
    Ms. Rosen. Thank you, Madam Chair, Ranking Member Lipinski, 
and to our panel for being here today. And Dr. Yamamoto, my 
husband did his medical residency at UCSF along with many of 
his friends. And so we have a soft spot in our household for 
UCSF. And I thank you for all the work you do there and the 
kind of graduates I know you produce. So I'll just go to that.
    So I'd like to hear--I love my husband. So I have to put 
that plug in, right? So I'd like to hear your thoughts on 
several related topics on how we consider evaluating and 
funding scientific research, the value of course our basic 
research core areas and how they relate to our national 
interest. Because oftentimes it's unclear. You know, I'm a 
former computer programmer systems analyst who started writing 
software in the 1970s. No PCs. No cell phones. There's more 
right here than we could have ever imagined when I was at 
University of Minnesota writing on computer card decks in the 
BASIC lab in the math department, right?
    So we've come a long way, and we couldn't predict it. So we 
want to be able to allow for these kinds of research that have 
no--that we can't even imagine what's going through. So 
following up on Representative Bonamici's question, I'd like to 
ask you all, what is lost to the nation if we stop funding 
research in a whole discipline because somebody doesn't see the 
potential? If we stop funding core fields like biology, 
chemistry, or physics because we think all the discoveries have 
been made, which they have not. And like you go to the 
mistakes, a lot of mistakes turn out to be the foundation for 
something else in the future. And if we refuse to fund a field 
we've never heard of, that might be a key that unlocks 
mysteries that are yet untold.
    So the wholesale defunding of particular fields of science, 
is that really a wise way for us to go?
    Dr. Yamamoto. I think it's a disaster. I think that the 
existence of the National Science Foundation as proposed by 
Vannevar Bush really puts a stake in the ground for basic 
research, research where you actually don't know where it's 
going to lead. And we are very far from--you know, the amount 
that we don't know still so vastly outweighs what we do know, 
that stopping any of those investigations would mean that our 
future for being able to have knowledge that we can then apply 
will go away. So we absolutely have to maintain this.
    I might just say one more thing about reproducibility that 
bears on your question and that is at least in the biological 
sciences. There's an element of reproducibility that hasn't 
been addressed here that I think bears mentioning and that is 
that because of past successes, we are now able to work in 
experimental systems including populations of human beings that 
are vastly more complex than we've been able to work on before.
    So the scientific ideal for planning an experiment is to 
control all the variables except the one you're trying to test, 
right? We're very far from that now, and it's good news that we 
are, that we understand enough to work on more complicated 
systems. But we need to acknowledge that when we do that, that 
when we control all the variables we can think of, underneath 
that is a vast number of variables that we don't know about, 
right? I call it the Rumsfeld effect. And acknowledging that 
says that the attempt to reproduce an experiment, ending up 
with a different result, doesn't mean that either experiment 
was wrong. I have to point out that it also doesn't mean that 
either experiment was right. And it simply means that the 
robustness of being able to reproduce it is not there. It very 
often will be it's not there because there are unknown 
variables below what you've tested. So just to give you a silly 
example that I think makes it easy to understand is that no 
reviewer of a grant application or a finished product that is 
submitted to a journal for publication would say, oh, this 
looks really terrific. You've really carried it out. It's a 
beautiful set of experiments. Could you please go back and do 
them all again at a tenth of a degree lower temperature, right? 
And that could be the variable that would change all the 
results and make two attempts, two very solid attempts to 
reproduce the study, come out with different results.
    And so remembering this is that we don't know about the 
robustness of a lot of these complex studies because of those 
unknown variables. And I think it calls into question in a way 
attempts to fund studies, to simply try to reproduce complex 
results, understanding robustness is critical. But being able 
to label something as right or wrong based on whether it's 
reproducible I think is problematic.
    Ms. Rosen. Thank you. I appreciate that. And I thank you 
for what you're doing, especially in creating a quicker path 
for people in STEM, people like myself who started their 
career. It's so important that we build that people pipeline, 
create opportunities as early as possible in the youngest 
grades so people know it's creative and innovative and not 
boring in the least sense and that they can all do it and not 
be science-phobes as someone else said. We need to generate 
that excitement. So I thank you for what you're trying to do 
with a lot of the programs you're working on. I yield back.
    Chairwoman Comstock. Thank you. I now recognize Mr. Tonko 
for five minutes.
    Mr. Tonko. Thank you, Madam Chair, and I find this 
discussion very uplifting, especially in light of President 
Trump's budget presentation which seems to disinvest in 
America, which is a troublesome notion.
    I'm concerned, Dr. Ferrini-Mundy, that cuts to the 
geosciences could hurt our national security, our economic 
security and our public health and safety. Are you aware of any 
NSF-funded research that came out of the geosciences 
directorate that produced valuable results?
    Dr. Ferrini-Mundy. Thank you for the question and of course 
the research that goes on in our geosciences directorate spans 
a very broad range of topics and areas. Fundamentally, we fund 
research that helps us better understand our planet. And so let 
me just give a couple of examples. We fund research to 
understand how the physical and chemical processes in the ocean 
and the atmosphere affect how ecosystems operate. And that not 
only brings us fundamental understanding of how heat 
redistribution happens, but it generates knowledge about marine 
ecosystems that ultimately can have applications about informed 
management of the fisheries industries, for example.
    Another area where we do terrestrial research has to do 
with knowledge generation that gets us understandings of 
groundwater and surface water systems that contribute to 
informed decisions about the use of water resources and 
therefore have implications for agriculture, potable water 
supplies, and recreations.
    Those are just a couple of areas where investment in the 
geosciences has affected our country in serious and important 
ways.
    Mr. Tonko. Thank you. And Dr. Zuber?
    Dr. Zuber. Yes, since I'm in earth science, I can add a few 
things to this. So one example is that subsurface prospecting 
and the study of subsurface materials really has provided the 
scientific framework for hydraulic fracking, okay, which has 
brought this country really far in the direction of energy 
independence.
    And I will also add that NSF's earth science program also 
includes the space environment surrounding Earth. And so for 
example understanding solar storms and their effects on, you 
know, if the GPS constellation goes out, if our cell phones go 
out, if the electric grid goes out, obviously that's bad for 
America, okay? And those studies are crucial in understanding 
that.
    Also the health of the oceans, coastal erosion factors that 
affects so many people that live along our coasts. And finally 
I would add that the geo program supports the polar programs 
including fully the Antarctic program.
    Mr. Tonko. Sounds like very valuable information that can 
guide us with some very important actions that we may need to 
put into place.
    New York State has had a number of devastating natural 
disasters in recent years including devastation from Super 
Storm Sandy, certainly Hurricane Irene, and Tropical Storm Lee. 
In New York's 20th District, my home district, we used to talk 
about storms that came once every 100 or once every 500 years. 
This type of talk is no more with devastating weather events 
happening time and time again.
    I've sat with families who have lost everything and have 
witnessed the exorbitant costs that we are still trying to pay 
off from these extreme events. Extreme weather events are 
incredibly expensive to our communities and our nation. So my 
question to the panel is does research in the geosciences help 
to ensure better predictions or better understanding of natural 
environmental hazards? Dr. Zuber?
    Dr. Zuber. Okay. Well, the answer to that is yes. So 
actually, there are studies that are being done and the state 
of prediction, near-term weather prediction and extreme storms, 
that work is underway. And it's critically important and we 
need to invest greater in it. There have been some studies done 
and they need to be verified that as severe storms move up the 
East Coast, they typically go out to sea, okay? However, with 
the loss of sea ice, okay, over the Arctic Ocean, it changes 
the wind patterns so that there's a higher probability of a 
storm coming up the coast, not taking a right turn.
    And so one can just envision what the economic consequences 
would be if we have more Hurricane Sandys coming up and hitting 
the East Coast. And that's just a single example. You know, 
obviously severe storms, droughts, and floods, are devastating 
to the economy. And so this requires field work. It requires 
data collection. It requires greater investment in high-
performance computing. So it's really, really cross-discipline.
    Mr. Tonko. And I would hope it would instruct us and issues 
of climate change and greenhouse gas emissions.
    Dr. Zuber. Well, certainly, but so you know, understanding 
weather on a short-term timescale is really fundamental in 
understanding if we're going to be able to extend those models 
to understand future climatic situations.
    Mr. Tonko. Dr. Zuber, I thank you. And Madam Chair, I yield 
back.
    Chairwoman Comstock. Thank you. And I thank today's 
witnesses for their testimony and the Members for their 
questions. We really appreciate your insight and ideas, and I 
think we certainly have more food for thought for future 
hearings also. So thank you. And thank you for your good work 
in this arena. And the record will remain open for two weeks 
for additional written comments and written questions from 
Members. This hearing is now adjourned.
    [Whereupon, at 11:44 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
